HHS/OIG-Audit--"Review of Medicare Credit Balances--Independence Blue Cross of Philadelphia, Pennsylvania, (A-03-92-00004)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Credit Balances--Independence Blue Cross of Philadelphia, Pennsylvania," (A-03-92-00004)
May 26, 1993
Complete
Text of Report is available in PDF format (1.59 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report summarizes the results of our review of Medicare outpatient accounts receivable with credit balances
at 11 hospitals serviced by Independence Blue Cross (IBC) of Philadelphia, Pennsylvania. Our review showed that hospitals
were not routinely reviewing Medicare outpatient credit balance accounts to identify Medicare overpayments that should
be refunded to IBC. As a result, 8 of the 11 hospitals received and retained Medicare overpayments estimated at $232,890.
Projecting the results to 40 hospitals serviced by IBC, we estimate that the 40 hospitals received and retained Medicare
overpayments of $1,249,179.